I. Description of the Program
a. The rewards program (“Program”) is a service provided by Advancial Federal Credit Union (“Sponsor”) and managed
by Augeo Consumer Engagement Services, LLC (“Administrator”).
b. Participation in the Program is exclusive to those who have a current consumer credit or debit card issued by the
Sponsor (“Rewards Card”). These individuals are defned as (“Cardholders”). Business credit cards and Business
debit cards are excluded from the Program and are not eligible to earn Points.
c. Under the Program, Cardholders will earn Points for qualifying transactions with a Rewards Card that has been
enrolled in the Program. Points may be redeemed for a variety of rewards including travel, merchandise, cash back,
gift cards, experiences certifcates, and more.
d. The Sponsor reserves the right to disqualify any Cardholder from participation in the Program and invalidate all
points for abuse, fraud, deceit or other misconduct, or any violation of the Program terms and conditions. The
Sponsor may make such a determination at its sole discretion.
e. The Program is void where prohibited by federal, state, or local law.
f. The Sponsor and the Administrator are not responsible for typographical errors and/or omissions in any program
document.
g. The Sponsor and the Administrator reserve the right to change the terms and conditions as well as the points
required for a reward within the Program. At the Sponsor’s option, redemption of Points may be restricted, limited,
expired or cancelled at any time without prior notice.
h. Eligibility in the program is restricted to individuals who have a statement address within the 50 United States, the
District of Columbia, or any U.S. Possession or Territory.
i. The Program’s Privacy Policy is available at the Program’s website at the bottom of each page.
II. Earning Points
a. Point accumulation varies by Rewards Card:
i. Credit Card
1. 1 point for each $1 in Net Retail Purchases. Bonus points: Earn 1.5 points for each $1 in Net Retail
Purchases when:
a. Net Retail Purchases made using credit card during the statement cycle is $2,500 or more; or
b. Cardholder uses credit card to make 25 or more purchases during the statement cycle.
2. Introductory Bonus Points: Earn 10,000 points when Net Retail Purchases is $500 or more using the credit
card within the frst 90 days of account opening.
ii. Debit Card
1. 1 Point for each $5 in Net Retail Purchases
b. Point earnings are based on the net retail purchase transaction volume (i.e., purchases less credits, returns, and
adjustments) charged to the Rewards Card during each day by the Cardholder. Net purchases are rounded to the
nearest dollar and are subject to verifcation. Any credits, except for payments to the credit card, will reduce the
number of Points available for redemption based on the dollar amount of the credit. Negative Points will post within
three (3) statement cycles on your Rewards Card statement if returns or credits exceed purchases. If a transaction is
subject to a billing dispute, the point value of the transaction may be deducted from the point total during the dispute
period. If the transaction is reinstated, points will be reinstated.
c. Purchases do not include any Advancial fees, service charges or interest charges; payments of existing Card
balances; payment of any Advancial loan; unauthorized charges; cash advances; ATM transactions; balance
transfers; convenience checks; quasi-cash transactions (person-to-person money transfers, casino gaming chips,
lottery tickets, money orders, wire transfers, travelers checks, foreign currency, or similar transactions); or gaming
transactions (off-site track wagers, Internet gambling, or similar transactions).
d. Point accrual will begin upon Program enrollment date. No points will be awarded retroactively.
e. Points are tracked and redeemable on a frst-in, frst-out basis. Points do not expire as long as a Rewards Card
associated with the account has qualifying point earning activity as describe in item b above at least once every
twelve months.
f. There is no limit to the Points that may be earned unless stated otherwise at the time a specifc promotion or offer is
made.
g. Points have no intrinsic cash value, are non-negotiable, and cannot be redeemed for cash (except as a Reward under
the “Cash Back” section of these Terms and Conditions), or for any other beneft except those Rewards designated
by Advancial. Points are not the property of the Cardholder and cannot be bought, sold, brokered, bartered,
attached, pledged, or gifted (except as a Reward under the “Point Giving” section of these Terms and Conditions), or
assigned or transferred to any person, including upon death, disability, by operation of law, or as part of a domestic
relations matter or legal proceeding.
h. In the event of fraud, abuse of the program privileges, or violation of the Program rules (including any attempt to sell,
exchange or transfer points or the instrument exchangeable for points), the Program Sponsor reserves the right to
cancel the Cardholder’s membership in the Program.
i. If more than one Rewards Card has been issued under the same membership account number, the Points earned
from each card will automatically be pooled together into one available Point balance.
j. Points may not be combined with any other loyalty/frequency reward program that is not managed by the Program’s
Sponsor.
k. The Sponsor reserves the right to award bonus Points to selected Cardholders for any activity or condition it decides.
l. In addition to other reasons stated in these Terms and Conditions, Points will be forfeited if (1) there is not qualifying
point earning activity on at least one Rewards Card linked to the account for a twelve month period, (2) the Primary
Cardholder fles for bankruptcy, (3) Advancial closes the linked Credit Card or Debit Card account for any reason,
(3) the Primary Cardholder closes the linked Credit Card or Debit Card account for any reason, or (4) a Cardholder
violates these Terms and Conditions. The Cardholder is not entitled to compensation from Sponsor or from any other
entity when Points are forfeited for any reason.
m. The Sponsor and the Administrator shall have no liability for disagreements between Cardholders regarding Points.
The Sponsor’s decisions regarding Point discrepancies shall be fnal.
III. Card Linked Offer Points (AMPRE)
a. Cardholders can earn additional Points from participating merchants when using their Rewards card for eligible
purchases at participating AMPRE merchants, both online and in-store. Point earnings will vary based upon the
merchant. Each merchant’s Point earning ratio is listed on the Program’s website. Each Participating Merchant has
reserved the right to change at any time, and without notice, the amount or percentage of any points it offers as
well as the terms and conditions of any qualifying purchase. You acknowledge that errors in the offer terms and
conditions obtained through your use of the Program may occur from time to time, whether caused by a Participating
Merchant or otherwise, and the Program or the Participating Merchant will use its commercially reasonable efforts to
promptly correct any such error, and you agree not to bring any action against the Program based upon or related to
such errors. Your continued use of the Program thereafter will constitute acceptance of such terms and conditions.
The Program does not represent or warrant that any particular Participating Merchant will participate in the Program
at the time you join the Program or at any time thereafter.
b. Cardholders must sign for an in-store purchase to earn points. Points will be available to view on the account
statement page as “pending” in 10-14 days. Points will be posted to the Cardholder’s rewards account within 45-90
days. The Program will not be liable for damages resulting from any failure to post points to your rewards account
in a timely manner. You acknowledge and accept that you are solely responsible for checking your rewards program
account regularly to verify that points have been properly posted. If you believe that points have not been properly
posted to your rewards account, then you must inform the Program within one year of the qualifed transaction for
which you are claiming that points should have been posted and must be able to provide proof of such transaction
acceptable to the Program. The Program reserves the right to determine, in its sole and absolute discretion, whether
points should have been posted to your rewards program account. You acknowledge that any such determination by
the Program will be fnal and binding.
c. You agree that the Program is not an agent of any Participating Merchant and that Participating Merchants
operate independently of the Program. The Program does not represent or warrant, or give any assurances that
any Participating Merchant will provide points for any particular transaction even where such transaction would
appear to qualify for such points. The Program is not responsible for the failure of any Participating Merchant to
pay points in accordance with the terms of that Participating Merchant’s offer. The Program does not assume any
liability, obligation or responsibility for any part of any offer or promotion, including without limitation the withdrawal
or modifcation of any such offer or promotion. Also, no Participating Merchant assumes any liability, obligation or
responsibility for our conduct with respect to the Program. Purchases from Participating Merchants may not qualify
if a separate coupon code or promotion is used; all offers are subject to the offer terms and conditions as described

d.

e.

f.

g.

in the applicable offer description and as otherwise may be set forth in such Participating Merchant’s Policies or
otherwise on its website.
Participating Merchants may have agreed to pay the Program certain operating or marketing fees when participants
purchase goods or services using their rewards program card (whether credit, debit or otherwise). Points associated
with any purchase from a Participating Merchant will not be earned by you unless and until the fees have been paid
in full by such Participating Merchants to the Program. From time to time, the Program may post pending points from
Participating Merchants to your rewards program account prior to the payment received by the Program. The Program
reserves the right to reverse the posting of any points in the event the applicable Participating merchant does not make
timely payment to the Program. The Program reserves the right to change its offer with respect to the amount of the
points associated with any Participating merchant at any time, but no such change will affect any points earned prior to
such change.
In order to make adjustments for returns and/or cancellations with respect to Qualifying Purchases, the Program may
deduct points from your rewards program account. In the event of any abusive or fraudulent activity related to the
Program, the Program reserves the right to make any adjustments to your rewards program account at any time. Any
such adjustments, however, will be made in accordance with this Agreement, the Policies, any applicable laws, rules or
regulations, and the terms of any Participating Merchant offers.
By providing your email address when you register on the Rewards website, you can agree to receive all future
AMPRE correspondence and notices electronically to that email address. Email is the primary method for contacting
Cardholders regarding their participation in the Program. It is the Cardholder’s responsibility to update or change the
email address on fle. This can be done on the Program’s website.
New merchant offers are updated periodically. There is not a limit to the number of times a Cardholder can earn Points
for shopping at an AMPRE merchant.

IV. Redeeming Points
a. Available redemption options and point totals may be found on the Program’s website which may be accessed from the
account summary details section in cuAnywhere® Online and Mobile Banking or at www.advancialrewards.org. These
totals show accumulated Points across all Rewards Cards associated under the membership account number.
b. To redeem Points, the Cardholder’s Rewards Card(s) account(s) must be open (meaning not closed, canceled, or
terminated for any reason); current (meaning there are no past due balances or negative balances on the Cardholder’s
Rewards Card(s) account(s); Cardholder’s credit card outstanding balance must not be over the credit limit; the
Rewards Card(s) account(s) must not have a revoked, charged-off or in bankruptcy status; and the Rewards Card(s)
cannot have any other status preventing authorization.
c. Points must be redeemed by the Cardholder, and may be used to provide a reward for another person of their choice in
accordance with these Terms and Conditions.
d. Points are deducted from the Cardholder’s Point balance immediately upon redemption.
e. All point redemptions are fnal.
f. The Cardholder is responsible for determining any tax liability arising from participation in the Program. Consult a tax
advisor concerning tax consequences.
g. The Sponsor or the Administrator have the right to remove points redemption options at any time for any reason.
V. Travel Rewards
Travel rewards include airline tickets, hotel accommodations, rental cars, cruises, destination activities/excursions and
vacation packages (“Travel Rewards”). Travel Rewards reservations must be made online at advancialrewards.org or
through the Administrator’s travel redemption center. The Administrator’s travel redemption center is able to take care of all
travel arrangements. The travel redemption center is a full service agency that can assist with air, hotel, auto, vacation and
cruise reservations. The hours of operation for the travel redemption center are Monday through Friday from 5:00 a.m. to
12:00 a.m. CST, Saturday and Sunday from 6:00 a.m. to 10:00 p.m. CST. All Travel Rewards are subject to availability and
restrictions of the relevant travel supplier.
a. All travel must be redeemed through Administrator’s fully licensed travel redemption center or website at www.
advancialrewards.org.
b. All airline tickets issued in exchange for Points are non-refundable and non-changeable after ticket issuance, without
paying the standard fees charged by each airline. Changes are subject to authorization by the airline and subject to any
fees charged by the airline and redemption center.
c. Lost, stolen or otherwise destroyed airline tickets will not be replaced without the Cardholder paying the standard fees
charged by each airline.
d. Cardholders may make additional travel reservations with the Administrator’s travel redemption center or website using
their Advancial Rewards Card.
e. Airfares are not guaranteed until ticket is issued. All reservations will receive a fax or email on the same day the ticket
is issued. The Cardholder must call in any corrections or discrepancies by the close of business, the same day the
ticket is issued. The travel redemption center will do their best to accommodate all changes and requests but is not
obligated to make changes. Any changes or corrections done the following day or thereafter are subject to all airline
airfare charges, exchange fees and processing fees and processing charges.
f. Paper airline tickets are subject to the individual airline paper ticket fees.
g. If a paper ticket is issued, the Cardholder has two options for delivery. The Cardholder can sign a waiver stating that
they accept responsibility for a lost ticket and then the ticket will be sent via US Mail. The second option is to pay a
shipping fee for the ticket to be sent via overnight delivery. Priority, Saturday and outside the forty-eight (48) contiguous
states, deliveries will be subject to additional shipping charges.
h. The Cardholder is responsible for payment of all baggage charges, departure taxes seat assignment charges, or other
charges that may be assessed by airlines, travel companies and/or governmental entities as a result of travel under the
Advancial Rewards Program.
i. Administrator’s normal and customary fees associated with processing travel related services are billed to the
Advancial Rewards Card.
j. Advancial and the Administrator are not responsible for the performance by the airlines of the ticketed transportation.
All reservations are made subject to the conditions of airlines, supply or business of the party providing the service,
which include exclusions and limitations of liability. The airline industry is in constant fux and changes made by this
industry are done quickly and frequently without notice, therefore, reward redemption rules for air travel are subject to
change without notice.
k. A valid government ID must be presented at the airport and it must match the traveler’s complete name as listed on the
airline ticket.
l. Cardholders may redeem Points for a single lowest published airfare as follows:
1. Each ticket must be ordered through Administrator for one round trip coach class airline ticket on a scheduled U.S.
or International carrier.
2. En-route stopovers are not permitted unless they are to make direct connections.
3. Reservations for tickets are only allowed through standard commercial passenger carriers, which exclude the
usage of charters.
4. Actual travel must occur any time within three hundred and thirty (330) days after the reservation conditions in
these Terms and Conditions are met.
5. Reservations shall also be subject to airline seat availability on travel dates specifed by the traveler.
m. Travel insurance: For added protection, it is highly recommended that all travelers consider purchasing travel insurance
at the time of ticketing to cover airline bankruptcy, trip cancellation & interruption, baggage delays and lost baggage,
medical expense, emergency medical transportation, and vehicle rental collision insurance. Advancial and the
Administrator have no responsibility to Cardholder or travelers with regard to the foregoing.

e.
f.

g.
h.

Merchandise pictured in any Advancial Rewards Program brochure or website may not necessarily refect exact colors or
models of actual rewards due to printing variations and/or manufacturers’ updates. Information is accurate to the very
best of our knowledge. Advancial and the Administrator are not responsible for errors or omissions.
The number of Points required for reward items are subject to change. Advancial will make reasonable efforts to advise
Program participants of changes to redemption requirements using normal communication channels such as the
Advancial Rewards website and Cardholder statements, among others, but shall not be held liable in any way for any
failure to do so.
Cardholders may exchange merchandise only in the event of merchandise defects or damage in shipment. All items
delivered by common carrier must be opened in the presence of that carrier and any exceptions, damages, or shortages
must be noted on the delivery receipt before cardholders sign to accept shipment of merchandise.
All merchandise is covered by manufacturer’s warranties. Any such defect should be handled through the standard
manufacturer repair facility as noted with product.

VII. Gift Card, Gift Certifcate and Prepaid Card Rewards
a. Points may be redeemed for gift cards or gift certifcates from select merchants. Most gift cards or gift certifcates are
delivered within two to three (2–3) weeks, to the address specifed on the order fle with the Administrator, as long as it is
within the United States and its territories. Points may also be redeemed for prepaid cards. The prepaid cards, issued by
Visa®, may take up to three to four (3 –4) weeks for delivery and can only be shipped within the United States.
b. Gift cards, gift certifcates and prepaid cards cannot be returned, and are not redeemable for cash or credit.
c. All other sales and/or use taxes including shipping and handling charges of items purchased using a gift card, gift
certifcate or prepaid card are the responsibility of the Cardholder and are subject to the merchants’ policies in effect at
the time of redemption. Purchases in excess of the amount of the gift cards are at the Cardholder’s or user’s expense.
d. Gift cards, gift certifcates and prepaid cards may also be subject to other restrictions imposed by the merchant. Gift
cards and gift certifcates purchased to provide services are subject to the terms and conditions of the vendor providing
the services.
e. Additional terms and conditions may be specifed on the gift card, gift certifcate, or prepaid card.
f. If a merchant declares bankruptcy, Advancial and the Administrator are not liable for the underlying funds on the gift card
or gift certifcate.
g. No dormancy or service fees will be charged by the Administrator on the underlying funds of the selected reward gift card
or gift certifcate.
h. Once the gift cards, gift certifcates or prepaid cards are redeemed and/or used, the cards are not returnable,
exchangeable or replaceable.
i. Each merchant sets a policy in regards to lost or stolen gift cards, gift certifcates or prepaid cards. Advancial and the
Administrator abide by the merchant’s policy. If a gift card, gift certifcate or prepaid card is lost or stolen, once received
by the Cardholder, the Cardholder must report the occurrence to the Administrator immediately. Advancial and the
Administrator reserve the right to decline to replace lost or stolen gift cards or gift certifcates in their sole discretion as
permitted by applicable law.
j. If gift cards, gift certifcates or prepaid card has been ordered by the Cardholder and not received by the Cardholder
or other addressee, the Cardholder must notify the Administrator using the provided customer service number. The
Cardholder must notify the Administrator no earlier than ffteen (15) days after the expected receipt date and no later
than sixty (60) days from the expected ship date. Upon receipt of such notifcation, the Administrator will investigate. The
Administrator with its sole discretion may replace any non-received shipment, in which a full balance remains on a gift
card, gift certifcate or prepaid card.
k. Advancial and the Administrator are not responsible if a recipient or Cardholder defaces, damages or otherwise renders
unsuitable for redemption a gift card, gift certifcate or prepaid that was issued in conjunction with the Program.
l. The prepaid Visa® cards expiration twenty-four (24) months after they are issued. The expiration date is imprinted on the
front of the prepaid card. Expired prepaid cards cannot be replaced.
m. Visa is a trademark of Visa U.S.A. Inc.
VIII. Cash Back Rewards
a. Cash back reward(s) will be deposited to the Cardholder’s Primary Savings Account at Advancial unless otherwise
specifed or elected by the Cardholder if rewards redemption options are available. Advancial reserves the right to add
or modify options at any time. Advancial will make reasonable efforts to advise Program participants of changes to Cash
Back Rewards options using normal communication channels such as the Advancial Rewards website and Cardholder
statements, among others, but shall not be held liable in any way for any failure to do so.
b. Advancial may, in its sole discretion, offer alternative redemption options for rewards such as a credit to the Cardholder’s
Credit Card account that will appear within the next two Billing Cycles. If this option is offered, the Cardholder is
responsible for any outstanding balance owed on the account after the credit is applied. Cash back reward(s) cannot be
applied toward the payment amount owed on an Advancial Rewards Card or any other account with Advancial or any third
party.
IX. LIMIT OF LIABILITY
NEITHER ADVANCIAL NOR THE ADMINISTRATOR SHALL HAVE ANY LIABILITY FOR THE ACTS OF THIRD PARTIES IN CONNECTION
WITH THE PROGRAM INCLUDING, WITHOUT LIMITATION, THE PROVIDERS OF REWARDS AND SERVICES. ADVANCIAL IS NOT A
SPONSOR OF ANY PROVIDER OF SERVICES OR REWARDS AND HAS NO CONTROL OVER ANY PROVIDER. THE CARDHOLDER
AND ANY OTHER BENEFICIARY OF THE REWARDS AGREES THAT ADVANCIAL AND AUGEO CONSUMER ENGAGEMENT
SERVICES (“ADMINISTRATOR”) AND ITS THIRD PARTY VENDORS WILL NOT BE LIABLE FOR, AND ANY CARDHOLDER AND ALL
BENEFICIARIES OF REWARDS RELEASES, DISCHARGES AND HOLDS HARMLESS ADVANCIAL , ADMINISTRATOR AND THEIR
VENDORS FROM ANY AND ALL CLAIMS OF NATURE AND ANY AND ALL LIABILITY RELATING TO CARDHOLDER’S AND ANY
BENEFICIARY’S PARTICIPATION IN THE PROGRAM OR USE OF REWARDS INCLUDING BUT NOT LIMITED TO CLAIMS FOR ANY
INJURY, ACCIDENT, LOSS, SICKNESS, DELAY, CANCELLATION, POSTPONEMENT, INCONVENIENCE, PENALTY, REFUND OR OTHER
IRREGULARITIES, CLAIM, EXPENSE OR DAMAGES SUSTAINED BY THE CARDHOLDER OR ANY BENEFICIARY, ASSOCIATED WITH
A REWARD OR USE OF REWARDS WHILE PARTICIPATING IN THIS PROGRAM AND IN THE CASE OF A TRAVEL REWARD, ANYONE
TRAVELING WITH OR WITHOUT THE CARDHOLDER, IN CONNECTION WITH THE RECEIPT, OWNERSHIP, OR USE OF ANY REWARD.
THE ADMINISTRATOR AND ADVANCIAL SHALL NOT BE LIABLE FOR ANY DIRECT, INDIRECT, PUNITIVE OR CONSEQUENTIAL
DAMAGES, AND THE SOLE EXTENT OF LIABILITY, IF AT ALL, SHALL NOT EXCEED ISSUING THE CORRECT NUMBER OF
POINTS EARNED UNDER THE PROGRAM AND REDEEMING THE POINTS FOR THE REWARD, SUBJECT TO THESE TERMS AND
CONDITIONS.
X. Contact Information
For questions, concerns, or complaints, please contact the Administrator’s customer service center. You should expect a
resolution to all inquiries within three (3) business days. The Administrator’s customer service center is open 24 hours/7 days
a week, except from 6:00 p.m. ET Thanksgiving Eve to 5:00 a.m. the day following Thanksgiving, and Christmas Eve and New
Year’s Eve starting at 11:00 p.m. ET, closed both holidays until 5:00 am ET the following morning.
800.657.1304
www.advancialrewards.org

VI. Merchandise rewards
a. When necessary, the Administrator may substitute a reward with an updated model of equal or greater value.
Cardholders will be notifed of any change when ordering. The Administrator reserves the right to replace or remove
certain sections within any Advancial Rewards Program literature or website. All rewards are subject to availability.
b. Merchandise rewards may take four to six (4–6) weeks to be delivered from the time of order. Multiple rewards may
arrive at different times because they may be provided by different vendors.
c. No shipments of merchandise can be made to APO/FPO or PO Box addresses.
d. Merchandise shippable by UPS will be available to all US territories. Items being shipped to Alaska, Hawaii, Puerto Rico,
Guam and the US Virgin Islands will have an additional freight charge billed to the Cardholder’s Advancial Rewards
Card.

Federally
insured by

NCUA
©2017.All Rights reserved.

Form EP144.1

WHERE WILL
YOUR POINTS
TAKE YOU?

Rewards from travel to gift cards & beyond



EARN

Earn everyday points

Gift Cards

Travel

Merchandise

Treat yourself to a day of shopping followed by a night
on the town. Enjoy a variety of gift card reward options
including dining, shopping, entertainment and more!

Spontaneous or planned, however you choose to travel,
Advancial Rewards offers a wide range of getaways to
suit your style. Browse top travel destinations, access
exclusive deals and redeem points for airline tickets, hotel
accommodations, car rentals, cruises, vacation packages and
destination activities and excursions all in one place.

With Advancial Rewards’ extensive merchandise selection,
you’ll be sure to find the reward item you’ve been saving
for! Browse hundreds of brand-name rewards including
cameras, tablets, gaming consoles and more!

From groceries to fuel, your purchases will add up fast!
Debit Card
$5 spent = 1 point

Enjoy freedom from restrictions!
• No blackout dates
• No advance notice requirement
• No round-trip flight requirement
• No Saturday night stay requirement

Credit Card
•
$1 spent = 1 point
•
Bonus - Earn 50%
extra points
Make 25+ purchases or spend
$2,500+ and earn 50% extra
points on all purchases during
that billing cycle

Discounted airfare
You can redeem 10,000 points for a $100.00 discount off
any scheduled major international or domestic airline.
When redeeming your reward points for discounted airfare,
your rewards card will be charged the ticket cost, less the
redeemed discount.

Earn bonus points
•

•

Ampre: Bonus point offers are already linked directly
to your card. Simply use your Advancial debit/ATM
or Advancial Visa® Rewards Plus card at participating
merchants, both in-store and online.You will earn bonus
points from national, regional and local merchants.
Ampre Online: Shop over 2,000 merchants at our
Ampre Online network and be rewarded even more. Earn
bonus points on all purchases using your rewards card.

Pool your points!
Your points can add up even faster! All credit and debit
card points will be combined into one account for
easy redemption.



REDEEM

Log in to online banking at advancial.org
Visit cuAnywhere® to view your points balance and
access the redemption site. Need help or have questions
along the way? Simply call 800.657.1304, available 24/7.

Experiences
Enjoy new experiences together
You can redeem points for a variety of daytime excursions
and nightlife entertainment. From a dinner cruise for two
to a hot air balloon ride, extraordinary rewards await.

Cash back
Earning cash back couldn’t be easier.
We will directly deposit your rewards into your savings account.
•
•
•

$50 cash = 5,000 points
$100 cash = 10,000 points
$200 cash = 20,000 points

Event Tickets
Redeem your points for tickets to top events across the
nation. From concerts to top sporting events to plays, find
tickets that you will enjoy!

Charitable Donations
Pay it forward with points!
Redeem your points for a greater good by selecting a
CharityChoice gift card. Donations can be designated to up
to three charities of your choice.

